Rates and Fees Table for UMB Visa Accounts with a Variable APR for Purchases
PLEASE NOTE that this information is provided for general information purposes only and is not specific to your Account.
See the Cardholder Agreement and Important Cost Information disclosure that was provided for your Account for more
detailed information. This information is accurate as of May 1, 2020.
Interest Rates and Charges
Annual Percentage Rate (APR) for
Purchases

10.99% to 24.99% based on your creditworthiness. This APR will vary with
the market based on the Prime Rate. This APR will not exceed 32.00%. Introductory
APRs with varying durations may be available on some accounts.

APR for Cash Advances

24.99%. This APR will vary with the market based on the Prime Rate. The APR will
not exceed 32.00%.

APR for Balance Transfers

Introductory APR may be available for the first 12 billing cycles for balances
transferred within 60 days from account opening. After the first 12 billing cycles, and
for Balance Transfers made more than 60 days from account opening, 10.99% to
24.99% (based on your credit worthiness) if your Balance Transfer is treated as a
Purchase, or 24.99% if your Balance Transfer is treated as a Cash Advance. These
APRs will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not
charge you interest on Purchases if you pay your entire balance by the due date each
month. Generally, we will begin charging interest on Cash Advances and Balance
Transfers on the transaction date.

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau

If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
•

Balance Transfer

Three percent (3%) of the amount of the Balance Transfer, with a $15 minimum and
no maximum.

•

Cash Advance

Three percent (3%) of the amount of the Cash Advance, with a $15 minimum and a
$50 maximum.

•

Foreign Transaction

Two percent (2%) of the U. S. dollar amount of each Cash Advance or Purchase.

•

Overdraft Protection

Three percent (3%) of the amount of the Overdraft Advance, with a $10 minimum
and a $25 maximum.

Penalty Fees
•

Late Payment

Up to $38

•

Returned Payment

Up to $38

•

Over the Credit Limit

None

How We Will Calculate Your Balance: We use a method called the “average daily balance (including new purchases).”
How We Determine APRs: The Purchase and Cash Advance APRs are determined by adding a Margin to the Prime Rate. The Prime Rate is the highest Prime Rate published in The Wall Street Journal Money
Rates table on the fifteenth (15th) day of each month, or the next business day, if the 15th falls on a weekend or holiday. The APR for Purchases and Cash Advances will not exceed 32.00%.
Margin: We will add 7.74% to 21.74% to the Prime Rate to determine the APR for Purchases. We will add 21.74% to the Prime Rate to determine the APR for Cash Advances.
Cardholder Agreement: For additional information about the costs and terms of the Account, see your Cardholder Agreement, which will be sent with the Card. The Cardholder Agreement and the Account will be
governed by Missouri and applicable federal law, but we will rely on the provisions of Nebraska law with respect to the fees and charges (other than interest) that apply to your Account, as authorized by Missouri
Revised Statutes Section 408.145. The Cardholder Agreement permits us to change the terms of this Account, including the rates, fees and other credit terms, upon notice to cardholder and subject to the provisions
of applicable law.
Notice to Young Applicants: If you are under 21 years of age, Federal law prohibits us from approving your application for a credit card unless you demonstrate that you have the independent ability to make the
required payments on your account, or unless you provide a guarantor or cosigner. The guarantor or cosigner must be acceptable to us and must sign our form of guaranty agreement.
Important Information About Procedures For Opening A New Account: Our bank complies with Section 326 of the USA PATRIOT Act. This law mandates that we collect and verify certain information about you
while processing your Account application. Please talk with a Bank representative if you have questions.
State Disclosures: (1) MARRIED WISCONSIN RESIDENTS: You agree that (a) no provision of any marital property agreement, unilateral statement under the Wisconsin Marital Property Law or court decree will
adversely affect our interests unless, prior to the time credit is granted, we are given a copy of the agreement, statement, or decree or we have actual knowledge of the adverse provision. (2) CALIFORNIA
RESIDENTS: An applicant, if married, may apply for a separate account. Applicants: (1) may, after credit approval, use the credit card account up to its credit limit; (2) may be liable for amounts extended under the
plan to any joint applicant. As required by law, you are hereby notified that a negative credit report reflecting on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your
credit obligations. (3) OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and that credit reporting agencies maintain
separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance with this law. (4) NEW YORK RESIDENTS: New York residents may contact the New York State
Department of Financial Services by telephone or visit its website for free information on comparative credit card rates, fees and grace periods. NY State Dept of Financial Services: 1-800-342-3736 or visiting
https://www.dfs.ny.gov/consumers/banking_money/credit_card_terms_and_fees (5) NEW YORK AND VERMONT RESIDENTS: We may obtain your credit reports, for any legitimate purpose associated with the
account or the application or request for an account, including but not limited to reviewing, modifying, renewing and collecting on your account. On your request, you will be informed if such a report was ordered. If
so, you will be given the name and address of the consumer reporting agency furnishing the report. (6) DELAWARE AND OREGON RESIDENTS: Service charges not in excess of those permitted by law will be
charged on the outstanding balances from month to month. You may pay more than the minimum payment due, up to your entire outstanding balance, at any time.
Important: Information about the costs of credit cards as shown in the Important Cost Information chart is accurate as of May 1, 2020, the date this document was printed. This information may have
changed after that date. To find out what may have changed, call us at 855.368.0410 or write to us at UMB Bank, n.a., P.O. Box 419734, Kansas City, Missouri 64141-6734.

